                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                               Inspection of
                                      the Bureau of Administration,
                                       Global Information Services,
                              Office of Information Programs and Services

                                           Report Number ISP-I-12-54, September 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                     1
Context                                                                           2
Executive Direction                                                               3
Policy and Program Implementation                                                 4
   Freedom of Information Act Process                                             4
   Declassification/Executive Order 13526 – Systematic Review Program Division   10
   Innovative Practice: Declassification Assessments                             11
   Records Management                                                            13
   Ralph J. Bunche Library                                                       15
   Privacy Division                                                              16
Resource Management                                                              19
Information Technology                                                           22
Security                                                                         26
Management Controls                                                              29
List of Recommendations                                                          34
List of Informal Recommendations                                                 40
Principal Officials                                                              41
Abbreviations                                                                    42




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   Leadership and management practices contribute to problematic morale and poor
       communication across the Bureau of Administration, Global Information Services, Office
       of Information Programs and Services (IPS). Management controls in IPS are
       insufficient, indicating leadership and management deficiencies in many parts of the
       organization.

   •   The main responsibilities of IPS include managing the Freedom of Information Act
       (FOIA) and declassification programs, administering the Privacy Act, and conducting
       records management. Lack of cooperation from the Department of State (Department)
       and internal weakness hamper IPS’s performance of these duties.

   •   IPS handles one of the largest FOIA workloads in the Federal Government. However,
       IPS’s lack of a sound process to develop its information systems led to delayed and
       flawed deployment of the Freedom of Information Document Managing System 2
       (FREEDOMS 2), IPS’s key software for managing cases, resulting in significant
       backlogs.

   •   IPS’s records management practices do not meet statutory and regulatory requirements.
       Although the office develops policy and issues guidance, it does not ensure proper
       implementation, monitor performance, or enforce compliance.

   •   IPS carries out its declassification duties well, due in large part to hiring experienced
       retirees to handle much of the work.

   •   Unclear lines of authority in the Privacy division hinder IPS’s ability to fulfill its
       mandated responsibilities.

   •   The Bureau of Administration plans to consolidate information technology and resource
       management under IPS for all of Global Information Services (GIS). The consolidation
       needs careful review and better planning.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between May 7 and June 15, 2012. (b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
       IPS is responsible for the Department’s records management and related technologies,
including public access to information under FOIA, the Open Government Act of 2007, the
Privacy Act, Executive Order (E.O.) 13526, and other legislation. This includes the following:

    •   Freedom of Information Act requests;
    •   Privacy information and protection;
    •   Classification management and review, including declassification;
    •   Corporate records management and special document production (e.g., answering a
        congressional or judicial request for information);
    •   The Department’s Ralph J. Bunche Library; and
    •   The Diplomatic Research Service.

       The office is in Washington and has no overseas locations. A director leads a staff of 358
employees, including 152 Civil Service employees, 184 when actually employed (WAE) staff
members, and 22 student interns. IPS employs a varying number of contractors for different
functions. Separate divisions provide information technology and resource management support.

        IPS plays a critical role in the Department’s communication with the public. By
providing citizens access to the Department’s records, the office is instrumental in maintaining
openness and transparency in the conduct of foreign affairs.

        IPS has multiple vacancies in branch and division leadership positions, with one branch
chief job having been vacant since 2007. The current office director assumed her job in
December 2011, after several months during which two employees shared leadership
responsibilities.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
       Persistent neglect of fundamental leadership responsibilities and management practices
has had profound consequences in IPS. The OIG team’s observations, discussions with IPS staff,
and the responses to OIG’s questionnaires indicated an office with problematic morale,
perceptions of favoritism, micromanagement practices, and confused lines of authority.
Inspectors found failures of communication, lack of training, questionable staffing decisions, and
poor time and attendance record keeping. IPS’s new director is just beginning to address the
many challenges that she faces.

      Many suggest that poor morale stems from frequently changing priorities and excessive
workload. (b) (5)



       Communication among all levels of IPS staff is poor. Division chiefs are located on the
same floor in order to strengthen communication within higher-level management. This physical
arrangement limits managers from seeing what their employees are doing on a daily basis,
however. IPS leadership told the OIG team that they plan to change this arrangement with the
building renovation, currently in process, which will colocate managers with members of their
staff.

        The office director and all division chiefs hold a weekly leadership meeting, but division
chiefs do not hold regular staff meetings. There are also no all-hands meetings to provide
interaction with upper level management and to discuss the organization’s priorities. Open
communication with staff would help build better morale and trust within IPS.

Recommendation 1: The Bureau of Administration should implement a policy requiring the
Office of Information Programs and Services to schedule regular all-hands meetings and for
division chiefs to hold weekly meetings with staff. (Action: A)




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Freedom of Information Act Process

       The Department’s FOIA process is inefficient and ineffective. IPS’s backlog of 6,950
cases continues to grow. A relatively small staff is processing the heavy volume of requests and
dealing with new software. Delays in responses from other bureaus, offices, and agencies
contribute to the problem.

        The Department receives among the highest number of FOIA requests in the U.S.
Government. In FY 2011, IPS reported that it received 14,262 requests, in addition to the 21,252
requests already pending at the beginning of the year. IPS employees processed 26,802 requests
during the year, leaving 8,712 pending. IPS reported that in FY 2011, the average number of
days to process simple cases was 156; for complex cases, 342. Some cases have been pending for
5 or 6 years.

       FOIA cases are prone to delay. The FOIA process begins with IPS’s receiving and
reviewing an incoming request. The request then goes to an analyst, who formulates a strategy to
make the necessary searches, which can involve interacting with multiple domestic offices and
overseas posts. Often, the Department’s bureaus do not make the request a high priority. After
the bureau responds, the analyst packages the documents and sends them to a reviewer, who may
remove some documents or suggest additional searches. The package then goes to another
reviewer, who determines whether exemptions in FOIA or other statutes apply and makes any
necessary redactions. Finally, the package goes back to the analyst, who assesses any fees for
searches and copies. The analyst then sends the document with a cover letter to the requester.

        Fifty-four percent of the FOIA requests received by the Department in FY 2011 were
invalid. The Department’s FOIA Web site does not provide information for a requester that is
clear enough to avoid mistakes. The process of assessing and responding to such requests is a
drain on IPS staff time.

Recommendation 2: The Bureau of Administration should provide clearer instructions in the
Freedom of Information section of the Department of State’s Internet site to minimize the
number of invalid requests. (Action: A)

        Workflow problems and staffing deficiencies contribute to the FOIA backlog. The group
that receives cases, the Requester Communication branch, has only one person, the branch chief,
who is qualified to conduct quality checks, resulting in a bottleneck in the process.

Recommendation 3: The Bureau of Administration should train a second person in the Office
of Information Programs and Services’ Requester Communication branch to do quality checks.
(Action: A)

       Once a case is received and passed on to the analysts, another bottleneck occurs because
analysts have trouble determining which offices or units should conduct the document searches.
The Department is too large and complex for analysts to rely on their knowledge of the myriad

                                          4
                             SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

programs administered by so many bureaus and offices. The absence of a single systematic and
reliable reference to enable analysts to identify which bureaus should receive search taskers
results in misrouted taskers and processing delays.

Recommendation 4: The Bureau of Administration should develop a list of all bureaus and
independent offices in the Department of State—complete with component offices,
responsibilities, and programs administered—to serve as a reference for Freedom of Information
Act case analysts in the Office of Information Programs and Services. (Action: A)

Introduction of Freedom of Information Document Managing System 2

        In 2011, IPS introduced FREEDOMS 2, an updated version of its online case
management system. Flaws in the introduction of the system have delayed FOIA cases even
further, almost paralyzing the process. Those flaws include failure to involve users in the system
upgrade, introduction of the system before it was ready, and lack of adequate training. The first
two are discussed in the Information Technology section of this report, and the third is addressed
in the Management Controls section.

Helping Other Organizations

       IPS recently allowed several staffers who process FOIA requests to take excursion tours
in Brazil to assist in visa processing. At a time when IPS has a large backlog of cases, it is
unwise to divert staff to other duties.

           Informal Recommendation 1: The Bureau of Administration should not assign Office of
           Information Programs and Services staff members to other organizations until that office
           has reduced its backlog of Freedom of Information Act cases.

Current Description of the Department of State’s Organization

         FOIA requires each agency to publish in the Federal Register a statement of its central
and field organization, showing where the public may obtain information, make requests, or
obtain decisions, along with other information about agency procedures. 1 Despite significant
organizational changes, the Department has not filed an updated statement since 1986. As a
result, the Department is not in compliance with the statute.

Recommendation 5: The Bureau of Administration, in coordination with the Office of the
Legal Adviser, should publish an updated notice of the Department of State’s organization.
(Action: A, in coordination with L)




1
    5 U.S.C. 552(a)(1).
                                             5
                                SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Litigation Team

         The litigation team provides support for cases in litigation. A manager who is new to
litigation and the legal field in general heads the team. (b)(5)(b)(6)
                                                This (b) (5)   coupled with vacancies at the branch
chief and division chief levels, has led the litigation team to rely upon one another and, to a
lesser extent, the Office of the Legal Adviser attorneys who manage the FOIA litigation
portfolio, forcing the attorneys to assume duties that are the responsibility of the branch chief.
Teamwide training in court proceedings would facilitate better management of this complex
portfolio.

Recommendation 6: The Bureau of Administration, in coordination with the Office of the
Legal Adviser, should implement a training plan for the Freedom of Information Act litigation
team in the Office of Information Programs and Services. (Action: A, in coordination with L)

       Litigation team members work together well but lack a dedicated group of reviewers to
support cases currently in litigation. To assist, IPS pulls reviewers from other divisions, which
increases the backlog in those divisions and demoralizes employees removed from their regular
work. This problem will only become more severe if the recent upward trend in litigation volume
continues. 2

Recommendation 7: The Bureau of Administration should assign full-time reviewers to support
the Freedom of Information Act litigation team in the Office of Information Programs and
Services. (Action: A)

Appeals Team

        The Appeals branch handles appeals concerning FOIA requests, mandatory
declassification reviews, classification challenges, and the Privacy Act. The appeals analyst and
a panel of retired ambassadors, who head a quarterly panel, manage FOIA appeals capably, if
sometimes slowly. In addition, the Office of the Legal Adviser provides legal review as
necessary. Roughly half of the appeals result in the release of additional information because of
the passage of time, an error in the original case analysis within IPS, or an insufficient records
search by the tasked Department bureau. Better communication from the Appeals branch could
improve the FOIA process. Updates to IPS case analysts and Department FOIA liaison officers,
giving examples of commonly recurring mistakes, as well as examples of best practices, could
reduce the number of appeals and improve overall customer service.

        Informal Recommendation 2: The Bureau of Administration should implement a
        process to provide periodic updates highlighting common errors and best practices to
        guide Freedom of Information Act case analysts and liaisons in the Office of Information
        Programs and Services.


2
 The increase in the number of lawsuits is due, in part, to a 2007 statutory amendment, 5 U.S.C. § 552(a)(4)(E)(i)
(2006), amended by the Open Government Act of 2007, Pub. L. No. 110-175, 121 Stat. 2524. This “fee-shifting”
provision permits the trial court to award reasonable attorneys’ fees and litigation costs to a plaintiff who has
“substantially prevailed,” which, as redefined by the 2007 amendment, is a fairly low threshold.
                                                6
                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

        The retired ambassadors who make up the appeals panel review FOIA appeals quarterly.
Qualified by their experience, perspective, and knowledge, they are highly regarded by observers
inside and outside the Department. However, meeting only quarterly limits the efficiency of the
appeals process and creates delays.

         Informal Recommendation 3: The Bureau of Administration should schedule additional
         appeals panel meetings throughout the year to expedite the Freedom of Information Act
         appeals process.

Departmentwide Training

         IPS staff reports that most Department employees are poorly informed about FOIA
principles and procedures, as well as the importance of providing information to the public. IPS
staff also says that assistant secretaries, deputy assistant secretaries, and office directors
sometimes fail to place sufficient emphasis on FOIA responsibilities to ensure that search taskers
receive prompt responses, the lack of which is a major cause of delays.

Recommendation 8: The Bureau of Administration should instruct the Freedom of Information
Act program manager to prepare a semiannual newsletter dealing with Freedom of Information
Act issues for officers who deal with such issues at all domestic bureaus and U.S. embassies.
(Action: A)

Recommendation 9: The Bureau of Administration, in coordination with the Foreign Service
Institute, should develop a distance-learning course dealing with the fundamentals of the
Freedom of Information Act and require all Freedom of Information Act officers to take the
course. (Action: A, in coordination with FSI)

        IPS is also responsible for administering E.O. 13526, which prescribes a “uniform system
for classifying, safeguarding, and declassifying national security information.” 3 The Department
and other executive agencies have an affirmative duty to train their employees in proper
classification and declassification of documents, to declassify materials as quickly as national
security will allow, and to self-inspect employees’ compliance with the E.O.’s provisions.

        In-person and online E.O. 13526 training is currently offered as an optional course.
Although some offices have requested and completed the in-person training option, and some
individual employees have completed the online training option, Department employees remain
largely unaware of their legal obligation to comply with E.O. 13526. The deadline for fulfilling
the mandatory E.O. 13526 training requirement for original and derivative document classifiers
was June 2010. 4

Recommendation 10: The Bureau of Administration, in coordination with the Office of the
Under Secretary for Management, should implement a policy requiring all employees to


3
  E.O. 13526, 3 C.F.R. 298 (Dec. 29, 2009), 75 Fed. Reg. 707 (Jan. 5, 2010), corrected at 75 Fed. Reg. 1013 (Jan. 8,
2010). These provisions went into full effect on June 25, 2010, except for sections 1.7, 3.3, and 3.7, which were
effective immediately.
4
  Id. at § 6.3.
                                                7
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

complete the classification training mandated under Executive Order 13526. (Action: A, in
coordination with M/PRI)

         The job of developing training and other programs to support the FOIA process belongs
to IPS’s FOIA program manager. The current leadership void in the Program and Policy division
chief position leaves the FOIA program manager with no direct supervisor. Although the
incumbent has a strong background in FOIA and the Privacy Act, IPS has not exploited her
talents. IPS has not conducted planning to address the increase in FOIA cases or the
Department’s large backlog. IPS has undertaken some special projects, but these have largely
highlighted the need for an overhaul of the Department’s FOIA efforts.

       Informal Recommendation 4: The Bureau of Administration should provide guidance
       and the necessary resources for the Office of Information Programs and Services’
       Freedom of Information Act program manager to improve Act-related efforts throughout
       the Department of State via training, updates, and systemic changes.

Information Access Program

        The Information Access Program branch responds to special requests, including those
from Congress, the Department of Justice (generally in connection with litigation), and other
agencies. The special nature of the requests normally results in rapid responses from Department
offices. The Information Access Program branch appears to be functioning well despite the
leadership void affecting the rest of the Programs and Policies division. This efficiency is due
largely to the efforts of the current branch chief, who emphasizes communication, training,
feedback, awards, and staff development—practices that are rare in this organization.

        Despite the large number of hard-copy documents IPS reproduces, the office lacks copy
machines that can handle the volume required. Until IPS develops a method to process and
disseminate all documents electronically—a step that may be complicated by the classification
level of some documents—the office will continue to experience processing delays due to the use
of slow or inoperative copy machines.

       Informal Recommendation 5: The Bureau of Administration should provide the Office
       of Information Programs and Services with high-speed copy machines to facilitate the
       workflow until the office can implement a greener solution.

Requests via the Department of Homeland Security

        The Department receives many requests that were sent incorrectly to the U.S. Citizenship
and Immigration Services. The requesters receive a form letter stating that they should request
the information from the Department. However, the letter does not inform the requester that the
Department does not accept Department of Homeland Security forms, so when IPS receives the
package, it rejects it until the requester provides the Department forms.

Recommendation 11: The Bureau of Administration should negotiate a reworded refusal letter
with the U.S. Citizenship and Immigration Services Freedom of Information Office that informs

                                          8
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

requesters of Department of State requirements for Freedom of Information Act requests.
(Action: A)

Measures to Fix Responsibility throughout the Department

        Personnel in Department bureaus who serve as liaisons to IPS are normally staff
assistants or others for whom FOIA responsibilities are a small part of their job. Their lack of
responsiveness indicates that performance in handling FOIA requests is not a significant factor in
their evaluations. Even if it were, the Department has not developed performance standards for
responding to IPS’s requests for documents. IPS does not report to the upper levels of the
Department about the responsiveness of bureaus and embassies on FOIA. To improve the
Department’s FOIA performance, the Department must fix responsibility at all stages of the
process.

Recommendation 12: The Bureau of Administration, in coordination with the Executive
Secretariat, should develop performance standards for responding to Freedom of Information Act
search requests and provide semiannual reports on compliance for the Secretary, Deputy
Secretaries, and Assistant Secretaries. (Action: A, in coordination with S/ES)

Recommendation 13: The Bureau of Human Resources, in coordination with the Bureau of
Administration, should review and update all position descriptions and work requirements for the
bureaus’ contacts for Freedom of Information Act responsibilities. (Action: DGHR, in
coordination with A)

Recommendation 14: The Bureau of Administration should develop a list of officers with
Freedom of Information Act responsibilities at all U.S. embassies. (Action: A)

More Effective Allocation of Attorneys’ Fees

         The Open Government Act of 2007 makes it easier for plaintiffs to recover attorney’s
fees and other litigation costs under FOIA, including those imposed for an agency’s failure to
meet statutory deadlines. The amendments also prohibit the use of funds from the U.S.
Government’s Claims and Judgment Fund to pay those fees. IPS now pays those fees out of its
budget. Sometimes when the courts assess attorney fees, it is because a bureau tasked by IPS has
been dilatory in providing IPS the documents requested by the plaintiff. In those cases, it is only
fair that the bureau be responsible for paying its share of attorneys’ fees.

         The number of cases in which the Department is a defendant has tripled in the past 3
years, from 25 to 81. The Department’s liability for fees is likely to increase. Establishing a
system of assessing a fair share of attorneys’ fees to the bureaus at fault would instill more
responsibility in the Department’s bureaus and better fulfill the intent of the Open Government
Act of 2007. To this end, IPS has asked for a special fund to pay attorneys’ fees and other
litigation expenses in its current budget request.

Recommendation 15: The Bureau of Administration should implement a system for billing
Department of State bureaus for any attorneys’ fees assessed in court cases related to the

                                           9
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

Freedom of Information Act if delays by the bureau contributed to the court’s assessment of the
attorneys’ fees. (Action: A)

Support for the Litigation Team

         The FOIA-related litigation workload has increased dramatically. The Office of the Legal
Adviser formerly provided one attorney to serve as the litigation team’s liaison with the
Department of Justice, which manages the Department’s FOIA litigation. However, the FOIA
litigation portfolio represented only 40 percent of the attorney’s overall Office of Legal Adviser
workload. The attorney selected for this role is invariably new to the Department and, generally,
new to FOIA, resulting in a steep subject-matter learning curve. This combination of factors
recently led the Office of the Legal Adviser to assign a second part-time attorney to help with
FOIA litigation matters, placing the litigation team in the difficult position of working with two
attorneys who juggle additional litigation deadlines in their respective portfolios. Furthermore,
given the Office of the Legal Adviser’s normal rotation cycle, an attorney who is new to the
Department and to FOIA will fill this part-time portfolio every 2 years. At a minimum, the
litigation team needs sufficient support for the heavy FOIA litigation portfolio.

Recommendation 16: The Office of the Legal Adviser, in coordination with the Bureau of
Administration, should review the staffing needs of the Office of Information Programs and
Services’ Freedom of Information Act litigation team and assign staff as necessary to provide
adequate coverage. (Action: L, in coordination with A)

Declassification/Executive Order 13526 – Systematic Review Program Division

        IPS is responsible for declassifying the Department’s foreign policy records, as well as
for conducting manuscript reviews for former Department employees. WAE reviewers conduct
foreign policy record declassification. One prerequisite for employment is that the WAE be a
retired FS-01 or GS-15 or higher from the Department, the U.S. Agency for International
Development, or the former U.S. Information Agency. This qualification helps ensure that
reviewers have subject matter expertise and reviewer competence in their areas of
declassification. Hiring senior-ranked retirees and paying high wages reflects in the quality of
reviews. The Information Security Oversight office (ISOO), National Archives and Records
Administration, noted the Department as one of the best Federal agencies in declassification
accuracy. 5




5
    Report to the President, National Archives and Records Administration, 2010 and 2011.
                                                10
                                    SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Innovative Practice: Declassification Assessments

Innovative Practice: Declassification Assessments

Issue: E.O. 13526 directs all executive branch agencies to establish and maintain an ongoing
self-inspection program. Its purpose is to assess the effectiveness of the classified national
security information program within individual agency activities and the agency as a whole in
order to comply with section 5.4 (d) (4) of the order.

Response: ISOO conducts a declassification assessment of 16 executive agencies by reviewing a
sample size proportionate to the number of documents reviewed in a 6-month period.
Assessments focus on missed equities, inappropriate referrals to other agencies, and improper
exemptions.

Result: For 2010 and 2011, ISOO evaluated a sample of the Department’s declassified holdings.
The result was an accuracy rating of 100 percent for both years. The Department’s perfect score
is due to the hiring of experienced and highly qualified senior-level WAE personnel.

         In addition, WAEs conduct manuscript reviews in the Lifecycle Management office,
which falls under the E.O. 13526 program manager’s supervision. This office supports authors’
efforts to publish their diverse work, which ranges from articles and op-ed pieces to book-length
projects, by sifting through manuscripts for classified information. 6

Declassification Backlog

       Approximately 85 percent of all material reviewed is declassified. IPS refers another 13
percent to other agencies for review. Two percent is exempt under one of nine categories in E.O.
13526, Section 3.3 (b).

        The Electronic Review and Foreign Relations of the United States/Mandatory Review
branches in IPS have an adequate workforce to maintain a steady declassification rate; however,
the Paper Review branch, with about half the total Systemic Review Program division staff, will
eventually become backlogged at current rates of declassification. The Paper Review branch
declassifies in 5-year cycles. The division is currently reviewing material for years 1986 to 1990.
The goal of the Paper Review branch is to review 4 million pages annually, a rate of productivity
that will prevent a backlog. The current rate is 2.5 million to 3 million pages per year. The Paper
Review branch will not complete the current cycle as scheduled and will not be prepared to
review files for the next period, 1991–1996. Further compounding this problem was the
enactment of the Kyl-Lott Amendment to the 1999–2000 Defense Authorization Act, which
requires another review of material previously declassified prior to 2001.

Recommendation 17: The Bureau of Administration should review staffing resources in the
Office of Information Programs and Services’ Paper Review branch with a view toward reducing
the declassification backlog. (Action: A)

6
 E.O. 13526, 3 C.F.R. 298 (Dec. 29, 2009), 75 Fed. Reg. 707 (Jan 5. 2010), corrected at 75 Fed. Reg. 1013 (Jan. 8,
2010).
                                               11
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Archives Technician – Paper Review Branch

        The Paper Review branch has one GS-08, Series 1421, archives technician in its staffing
pattern. According to the Office of Personnel Management’s position description for this series,
the archives technician is supposed to be assembling, correlating, and analyzing data and
information for specific record-keeping programs, rather than retrieving, preparing, and returning
storage boxes of document material for branch declassification reviewers. The OIG team notes
that one of the branch manager’s goals is to assign data entry duties to direct hires, therefore
reserving more time for WAE reviewers to conduct their primary duty of declassification.

Recommendation 18: The Bureau of Administration should assign appropriate duties to the
Series 1421 archives technician in the Office of Information Programs and Services’ Paper
Review branch so that this employee conducts data entry duties in accordance with the Office of
Personnel Management’s position description for this series. (Action: A)

Foreign Affairs Officer – Foreign Relations of the United States/Mandatory Review Branch

        A GS-13 foreign affairs officer is one of two direct-hire employees in the Foreign
Relations of the United States/Mandatory Review branch of the Systematic Review Program
division. According to his position description, the occupant should be the key decisionmaker in
the public release of declassified information, act as interagency liaison officer, represent IPS in
contacts with other Federal agencies, and make recommendations for improvement of the
declassification program. Instead, the branch chief carries out these duties, and the GS-13 officer
spends most of his time on routine data entry and other administrative requirements that reflect
neither his qualifications nor grade level.

Recommendation 19: The Bureau of Administration, in coordination with the Bureau of Human
Resources, should review the description for foreign affairs officer position GS-130-13 in the
Office of Information Programs and Services’ Foreign Relations of the United States/Mandatory
Review branch and reclassify the position, if appropriate. (Action: A, in coordination with
DGHR)

Declassification Guides

        IPS does not have a formal means of providing interim declassification guidance to WAE
declassification reviewers. The Department updates formal declassification guides every 5 years;
however, because of the lack of both horizontal and vertical communication, coupled with little
interaction between the branches of the Systematic Review Program division, new
declassification guidance is not distributed regularly among the WAEs, thus increasing the
chance of error.

       Informal Recommendation 6: The Bureau of Administration should develop an interim
       read file of the most recent declassification guidance for distribution to all
       declassification reviewers in the Office of Information Programs and Services’
       Systematic Review Program division.



                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Records Management

         IPS provides records management policy and guidance to domestic bureaus and overseas
posts but has no means of enforcement. The Department therefore does not comply with
pertinent legal requirements, such as those in the Federal Records Act or Foreign Affairs Manual
(FAM). The high scores that the National Archives and Records Administration give the
Department on its records management program disguise the extent to which the Department
fails to capture records for proper disposition.

         The Department’s records management infrastructure is inefficient and ineffective. It
relies largely on a print-to-file system that requires domestic offices and overseas posts to print
hard copies of documents and send them by the boxful to a records service center for laborious
processing and storage. Existing tools that can capture records, such as the State Messaging and
Archive Retrieval Toolset (SMART), are used only intermittently, resulting in significant loss of
permanent records. Failure to develop and implement electronic systems has resulted in poor
performance.

        Attendance at the latest semiannual bureau records coordinator meetings reflects the lack
of IPS influence and bureau interest: 11 of 31 coordinators attended the winter 2011 session, and
19 of 31 attended the spring 2012 session. IPS formerly offered a weekly briefing for overseas
information management officers in Washington for consultations but cancelled it due to lack of
participation after the Bureau of Information Resource Management made the briefing optional.
IPS now offers an elective briefing that is seldom, if ever, requested.

Recommendation 20: The Bureau of Administration, in coordination with the Bureau of
Information Resource Management, should implement a plan—including adequate management,
monitoring, and compliance followup controls—to facilitate domestic bureau and overseas post
compliance with Federal statutory requirements for and Department of State guidance on records
management. (Action: A, in coordination with IRM)

Records Management Program Management

        The Department’s records management deficiencies begin at the first stage of the records
life cycle creation. IPS cannot identify how many records the Department creates. Although it
can reasonably account for the telegraphic records now captured in SMART, IPS cannot account
for hard-copy records that domestic bureaus and overseas posts should be sending on a regular
basis to the records service center. In the realm of print-to-file records, IPS tracks the number of
boxes that it receives but has no way of knowing whether offices and posts are partially or fully
compliant. Neither can IPS account for millions of record emails that SMART should capture. In
2011, for example, SMART captured 61,156 of an estimated 15 million record emails in the
system that should be captured. The OIG team noted that confusion among Department
employees and, in some cases, inadequate performance have resulted in an underuse of
SMART’s record email function.

Recommendation 21: The Bureau of Administration, in coordination with the Bureau of
Information Resource Management, should implement a plan to identify and capture all record

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

email in the State Messaging and Archive Retrieval Toolset. (Action: A, in coordination with
IRM)

        At the time of the inspection, IPS was conducting an analysis to determine the level of
overseas post compliance with records management requirements. However, the methodology of
this analysis is flawed and the results unverifiable. Without a verifiable gap analysis to gauge the
scope of the information shortfall, IPS is unable to prepare for downstream effects, such as
increased workload for declassification and FOIA activities, and risks potential loss of historical
documents.

Recommendation 22: The Bureau of Administration, in coordination with the Bureau of
Information Resource Management, should conduct a verifiable analysis to determine the level
of compliance of domestic bureaus and overseas posts to records management statutes and
regulations. (Action: A, in coordination with IRM)

Electronic Records

        The November 2011 Presidential Memorandum, Managing Government Records, seeks
to reform records management policies and practices. It requires agencies to include “plans for
improving or maintaining its records management program, particularly with respect to
managing electronic records….” The Department has much room for improvement in this area.

        IPS, realizing the need for an electronic records system, commissioned an August 2011
study, A Long Term Enterprise-Wide Records Management Strategy for Electronic Records. The
report envisions a solution to managing and preserving records that now are stored in network
shared drives, workstation drives, and SharePoint sites. The increasing reliance on shared drives
and SharePoint sites and the impracticality of the print-to-file method justify an enterprisewide
electronic solution that also would minimize, if not eliminate, the print-to-file method. IPS has
yet to fund an electronic records system, thereby relegating the Department to languish in
inefficiency and fall short of goals highlighted in the November 2011 Presidential memorandum.
Full implementation of an electronic records system would minimize, if not eliminate, the print-
to-file method.

Recommendation 23: The Bureau of Administration should implement an enterprisewide plan
to manage and preserve electronic records in accordance with Federal statutes, regulatory
requirements, and the November 2011 Presidential memorandum on electronic records
management. (Action: A)

        Permanent records figure prominently in IPS’s priorities, but the office could take
advantage of improvements in the management of temporary records to produce electronic
records, dispose of paper copies, avoid the need for storage, and avoid warehousing costs. A July
2007 Department notice promulgated guidance on digital imaging for records management. The
recently published Foreign Affairs Handbook (FAH) regulation 5 FAH-4 H-612 b. amplifies the
notice and states that “temporary paper records may be destroyed after the records have been
converted to an electronic format and verified for 100 percent accuracy and completeness.”
Domestic offices and overseas posts would benefit greatly if the Department issued standard
guidance and processes for digitizing temporary records, particularly those required in general
                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

services and financial management operations. Such action also would fulfill the intent of the
November 2011 Presidential memorandum.

Recommendation 24: The Bureau of Administration, in coordination with the Bureau of the
Comptroller and Global Financial Services, should issue joint guidance on digitizing temporary
records and subsequent destruction of paper records after conversion and verification of accuracy
and completeness. (Action: A, in coordination with CGFS)

Ralph J. Bunche Library

        Founded by Thomas Jefferson in 1789, the Ralph J. Bunche Library is the oldest library
in the Federal Government. With a print collection of more than 300,000 items, the library
handled visits by almost 17,000 patrons and circulated approximately 42,000 items in 2011.

        Like most libraries, the Ralph J. Bunche Library is increasing the services it provides
online. Last year, the library had almost 16,500 online user sessions, a 31 percent increase over
2005. The move to more online resources means that the library is now able to serve patrons
around the clock, not just in Washington, but also at all Foreign Service posts. The increasing
reliance on online resources requires paying for access for specialized databases the Department
needs.

        In 2001, the library became responsible for handling acquisition of online resources for
much of the Department and received an increase to its budget base. In the intervening years, the
cost of online resources has gone up without a matching increase in funding. Database access
costs absorb a larger portion of the library’s budget every year. Budget pressure sometimes
requires staff to drop useful but costly services, such as the Global Trade Atlas, a source of trade
data used by Department economists. In addition, acquisition of books and other traditional print
materials has declined, with new items usually purchased only when a patron requests them.
These changes are occurring at most libraries and require the Department to rethink the way it
funds information services. Library management has not been silent about the need for budget
increases but has not presented a strong case for increased funding.

       Informal Recommendation 7: The Bureau of Administration should analyze the effect
       of the increased cost of electronic acquisitions in the Ralph J. Bunche Library so that
       Department of State leadership can make an informed decision about appropriate funding
       levels for the library.

        The library provides valuable research and reference material to Department employees,
both in Washington and overseas. To inform potential patrons about their services, library staff
members make presentations during the Civil Service Orientation and Office Management
Specialist Training. They also sometimes see the Orientation for Foreign Service Officers (A-
100 classes) during tours of the Department. The library has also instituted a speaker series to
enhance outreach, but many other opportunities exist to promote library services. For example,
there has been no effort to provide information about library services in senior training courses
or in courses aimed at locally employed staff, other than those who work in Information
Resource Centers overseas.

                                          15
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Recommendation 25: The Bureau of Administration, in coordination with the Foreign Service
Institute, should expand the number of presentations the Ralph J. Bunche Library makes to
Foreign Service Institute students. (Action: A, in coordination with FSI)

Privacy Division

       The Privacy division (PRV), staffed by nine full-time employees and two contractors,
handles the Department’s privacy awareness and training, as well as compliance with privacy
and personally identifiable information (PII) statutes.

         The lack of clarity on the management of PRV has hindered the division’s ability to
perform its responsibilities and adversely affected staff morale. Currently, PRV receives
direction and assignments from the senior advisor for privacy policy (SAPP), an individual
reporting to the deputy assistant secretary. The SAPP is heavily involved in day-to-day PRV
activities, including tasking PRV staff members to develop presentations, participating in
subcommittees, and responding to queries from other Department offices. The SAPP also holds
one-on-one meetings with PRV staff to discuss personnel matters. Additional complications
occur during the clearance process, because the SAPP and the director of IPS are reviewing and
clearing correspondence—on several occasions each expressing a different view on the direction
or message represented or both.

        The OIG team heard discussions repeatedly about moving PRV out of IPS to report
directly to the deputy assistant secretary, possibly with PRV staff reporting to the SAPP, whose
position would become permanent. The OIG team, however, questions this strategy, especially
given that senior management provided no examples to show that the division is not able to
achieve requirements, including interagency coordination and interaction. The OIG team would
encourage Department senior management to evaluate further the potential move of PRV and
determine whether such action would be disruptive rather than productive for the bureau.

Recommendation 26: The Bureau of Administration should define a clear division of roles,
responsibilities, and management reporting between the senior advisor for privacy policy and the
Privacy division in the Office of Information Programs and Services. (Action: A)

Privacy/Personally Identifiable Information Training

        Department employees receive privacy/PII training via a distance-learning course, PA
459, offered by the Foreign Service Institute. PRV develops the course content, and the Foreign
Service Institute assists with graphics and course placement on the training site. The Federal
Information Security Management Act (FISMA) and Office of Management and Budget
guidance 7 require annual security and privacy training for all Department employees, including
contractors. PA 459 is required only for Department full-time employees, and only once, not
annually. Contractors, who account for a large portion of the Department’s workforce, are not
required to take this training.
7
 Office of Management and Budget Memorandum 07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information, May 2007, and Office of Management and Budget Memorandum 11-33, FY
2011 Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management, September 2011.
                                            16
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        PRV discussed with the Bureau of Diplomatic Security about combining the privacy/PII
training requirements and the annual cyber security training course required for all Department
employees. Combining the courses would enable the Department to comply with annual security
and privacy training requirements. Without regular privacy training, the Department is at greater
risk for accidental disclosure of sensitive information.

Recommendation 27: The Bureau of Administration, in coordination with the Bureau of
Diplomatic Security and the Foreign Service Institute, should combine the Department of State’s
cyber security training course and the privacy and personally identifiable information training
course into a single mandated course that all Department of State employees, including
contractors, take annually. (Action: A, in coordination with DS and FSI)

Privacy Impact Assessments and System of Record Notices

        PRV has been unable to comply with privacy impact assessment and system of record
notice requirements under the Privacy Act because of the considerable amount of time it spends
interacting with and waiting for necessary information from bureau personnel. The Privacy Act
requires completion of a privacy impact assessment for each information system to determine the
risks and effects of collecting, maintaining, and disseminating data in identifiable form in an
electronic information system. The Privacy Act requires publication of system of record notices
in the Federal Register to inform the public what types of records the Department maintains,
whom the records are about, and what uses are made of them. PRV coordinates with personnel
from Department bureaus to complete system of record notices and privacy impact assessments.

        The Department currently has 78 published system of record notices and more than 150
privacy impact assessments. PRV reviews the notices and assessments for accuracy by
contacting bureaus for assistance in gathering needed information. However, PRV has been
unable to comply with requirements regarding privacy impact assessments and system of record
notices due to lack of responsiveness from bureau personnel. As a result, PRV staff spends a
considerable amount of time either editing these documents or waiting for the correct
information.

        The level of interest shown by bureaus in completing privacy impact assessments and
system of record notices depends heavily on whether completion is tied to the Department’s
annual FISMA reporting to the Office of Management and Budget. For FISMA reportable
systems, Department bureau personnel have been responsive to information requests because
they are accountable for incomplete records. However, bureau personnel do not give
nonreportable systems the same level of importance or urgency for completion. In the absence of
Department senior management emphasis on the importance of complying with Privacy Act
requirements for all systems, the Department is vulnerable to improper collection or release of
privacy-related information.

Recommendation 28: The Bureau of Administration should implement a policy requiring all
bureau executive offices to designate individual(s) to be the point of contact for their bureau’s
privacy impact assessments and system of record notices and to provide this point of contact
information to the Office of Information Programs and Services’ Privacy division. (Action: A)
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Recommendation 29: The Bureau of Administration should implement a policy requiring all
bureaus to complete necessary updates and revisions for their respective privacy impact
assessments and system of record notices as required by the Privacy Act of 1974. (Action: A)

Department Data Loss Prevention Pilot

        PRV participates in the Department’s Data Loss Prevention pilot, along with the Bureaus
of Information Resource Management and Diplomatic Security. The pilot committee, formed in
September 2009, works to determine possible solutions to the inappropriate use of sensitive
information on email, mobile devices, and Web sites. PRV staff members assist with the
development of policies and procedures for the Data Loss Prevention effort as it relates to
privacy and participate in the analysis of identified incidents.

        The Data Loss Prevention pilot is ready to move forward as an established program
within the Department; however, the Department has yet to determine where the program will
reside and which bureau will have ownership of the tool. The pilot committee has discussed the
possibility of PRV having ownership of the program. However, the OIG team does not agree
with this plan. Although the Data Loss Prevention tool currently reviews data from a privacy
perspective, its scope could easily be increased to include other information security elements,
including law enforcement, financial, and consular functions—a fact confirmed by the pilot
committee. The Chief Information Officer in the Bureau of Information Resource Management
would be the appropriate owner of the program and tool, as that office is responsible for the
information security program for the Department and administers many of the Department’s
current information security programs.

Recommendation 30: The Bureau of Information Resource Management should take ownership
of the Data Loss Prevention program and tool for the Department of State. (Action: IRM)




                                         18
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Resource Management
Administrative Functions

       OIG questionnaires described the resource management team as professional and helpful.
Currently, the resource management staff consists of a division chief, three program analysts,
one program assistant, and an administrative officer. Contract staff provides support for the
mailroom, security, and other administrative responsibilities, including time and attendance.
Plans are underway with the Bureau of Administration to consolidate all resource management
functions within GIS. The OIG inspectors found problems with the performance appraisal
process, position descriptions, awards program, contracts, and management controls.

Performance Evaluations

        For the FY 2011 rating period, IPS had 37 incomplete evaluations as of March 15.
According to 3 FAH-1 H-2823.1 e. and 3 FAM 2827.7, delinquent raters should be reported to
the Bureau of Human Resources’ Office of Civil Service Human Resources Management. The
Office of the Executive Director in the Bureau of Administration has issued at least four
reminders to senior management regarding the urgency to complete evaluations. IPS employees
said that staff mentoring and training need improvement. IPS management has not made staff
development a priority because of the heavy workload. Some employees noted that the only
training they have received during their tenure in IPS is on-the-job training and that they receive
minimal constructive feedback regarding performance. OIG team members counseled a number
of management staff members, including managers, throughout the inspection.

Recommendation 31: The Bureau of Administration should train supervisors and staff on the
performance appraisal process and individual development plans and develop a mentoring
program for employees. (Action: A)

Recommendation 32: The Bureau of Administration should include the timely preparation of
employee appraisals in supervisors’ work requirements. (Action: A)

Position Descriptions

        Many position descriptions have not been updated recently, with some dating from 1990.
For example, two positions in the organization are at the GS-08 level and require immediate
reclassification, as these positions (numbers S9017500 and S97068) are not at an appropriate
grade level. One position (see the section on declassification in this report) is conducting duties
appropriate for a lower grade level. The other position is in the wrong division, based on the
individual’s actual duties and responsibilities.

Recommendation 33: The Bureau of Administration should update the position descriptions for
position numbers S9017500 and S97068. (Action: A)




                                          19
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Awards Program

        IPS has an active awards program, but many employees noted that its implementation
appears unfair. A few upper-level management employees appeared to receive consistent high-
dollar cash awards in the past 3 years, but division staff at lower grade levels did not receive
corresponding amounts. According to staff members, many believe that only a select group of
individuals in IPS receives awards each year. A review of the awards file from 2007 to 2011
showed that IPS approved awards in widely varying and inconsistent amounts. Lack of an
equitable awards program has a negative effect on staff morale.

Recommendation 34: The Bureau of Administration should implement a plan to clarify
standards for the Office of Information Programs and Services’ awards program and to set
appropriate amounts for cash awards. (Action: A)

Contracts

       IPS executes approximately $20.3 million in contracts for non-information technology
services and $7.9 million for information technology services. Most responsibilities for
contracting officer’s representatives fall on the IPS Resource Management branch chief, who
monitors 10 contracts but has little daily involvement with the contractors and their scope of
work. Having contracting officer’s representatives and government technical monitors with
constant interaction with their contractor staff will improve evaluation of performance and help
achieve proper management oversight. If not corrected, this issue could lead to overpayment of
contractors or failure to meet project milestones.

Recommendation 35: The Bureau of Administration should realign contracting officer’s
representative and government technical monitor responsibilities in the Office of Information
Programs and Services to improve contract oversight management. (Action: A)

Financial Management

        Each year, IPS receives single-year funding that is divided into three categories:
information programs and services, systems, and library services. The bulk of the budget pays
for direct-hire staff, WAEs, and contractor personnel. IPS has no budget plan that identifies
program objectives and funding priorities for each office. IPS would benefit from discussions
with division heads on critical budget needs.

        Although budget responsibilities are centralized in the Bureau of Administration’s Office
of the Executive Director, IPS has a designated program analyst who has coordinating
responsibility for the budget and personnel support. However, this person is relatively new to the
Department and is unfamiliar with its financial regulations.

       Informal Recommendation 8: The Bureau of Administration should enroll the Office of
       Information Programs and Services’ resource management program analyst in financial
       management training.


                                         20
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Telework Policy

         Under 3 FAM 2362.1, the employee and supervisor must establish a telework agreement
outlining the specific work arrangement before the employee begins teleworking. Both parties
must review these agreements annually and upon any material change in work circumstances
(i.e., promotion or new supervisor). IPS has a list of teleworkers for the office but has not
reviewed some of their agreements in the past year.

       Informal Recommendation 9: The Bureau of Administration should implement a policy
       that requires the Office of Information Programs and Services to review its telework
       agreements annually.




                                        21
                            SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Information Technology
       The Archiving and Access Systems Management division (AAS), staffed by 21 full-time
employees and 25 contractors, handles the development and implementation of the Department’s
State Archiving System (SAS) and FREEDOMS, in addition to providing technical support to
IPS employees.
                                                                                                         b) (5)
        The arrival of the division chief has received mixed reactions from staff members, (



Systems Development and Project Management

        AAS lacks a sound and defined systems development life cycle methodology 8 and
appropriate implementation of project management for its systems development and
enhancement projects. This resulted in a number of complaints the OIG team heard regarding the
functionality and use of SAS and FREEDOMS. SAS maintains the authoritative records of
official correspondence, communications, and documentation related to U.S. foreign relations.
FREEDOMS is an information access, case tracking, and document management system used for
processing information access requests.

        The systems documentation provided for SAS and FREEDOMS was limited and in most
cases did not illustrate any linkage to systems development or project management
methodologies. For example, requirements-gathering documentation did not indicate a thorough
analysis to identify and prioritize user requirements or engage with stakeholders. There were no
benefit and cost analyses, risk assessments, or change control documentation for SAS and
FREEDOMS. Also absent was documentation illustrating the use of quality assurance testing or
appropriate control gates during the course of development and implementation. Control gates
provide management the opportunity to review progress and challenge project teams to verify
that they understand what the users want before proceeding forward.

        Most IPS divisions and branches use either SAS or FREEDOMS to perform their work.
IPS staff members commented that they were not part of the planning stages, nor were they
consulted prior to finalizing the essential requirements for both systems. As a result, SAS users
complained that the system lacks ease of use, access, and search capabilities, and FREEDOMS
users indicated that the system is not intuitive and has imaging problems.

       Problems experienced by SAS and FREEDOMS users could have been prevented if AAS
management had enforced the use of systems development and project management
methodologies. Instead, management focused on moving forward with upgrades to satisfy the
requests of IPS management. Most recently, for example, the FREEDOMS project team
performed data migration from FREEDOMS to FREEDOMS 2, the latest version of the system.
The pressure to transition all users to the upgraded system resulted in the project team’s spending

8
 According to the National Institute of Standards and Technology Special Publication No. 800-64, a systems
development life cycle process defines the recommended procedure by which an organization envisions, defines,
builds, deploys, operates, and maintains its systems and applications.
                                              22
                                  SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

months in a data migration cleanup effort, because a large portion of the data from FREEDOMS
did not fit correctly into FREEDOMS 2. To complicate matters, one IPS branch reverted to using
the previous version of FREEDOMS to perform its required core FOIA function. Although AAS
staff members are unable to quantify the cost of these system efforts, their time would have been
better spent working on new projects rather than on correcting mistakes.

        AAS has recently drafted a systems development life cycle methodology manual for
future development activities. AAS management has requested staff to adopt the methodology
for current enhancements for SAS and FREEDOMS 2. As such, project teams are creating some
of the required systems documentation after the fact. Although developing documentation in a
piecemeal fashion may satisfy the request of management, it does not provide assurance that
SAS and FREEDOMS are meeting the needs of users.

Recommendation 36: The Bureau of Administration should postpone all development and
enhancement activities for the State Archiving System and the Freedom of Information
Document Management System in the Office of Information Programs and Services until the
bureau has completed all required systems documentation, including user requirements, benefit
and cost analyses, risk assessments, and change control documentation, and has obtained all
appropriate management and user acceptance approvals. (Action: A)

Recommendation 37: The Bureau of Administration should implement a plan for the Office of
Information Programs and Services’ Archiving and Access Systems Management division to
meet with all users of the State Archiving System and the Freedom of Information Document
Management System to identify all critical and core system requirements and address them in the
upgrade efforts of both systems. (Action: A)

Single Information Technology Services Provider

        GIS plans to make AAS its single information technology services provider. However,
the level of communication and planning by AAS needs significant improvement and calls into
question the justification for the proposed consolidation.

        AAS management says the consolidation of information technology support services will
leverage expertise in this area, promote cost savings, and consolidate contracts. Once GIS
completes information technology operations consolidation, AAS and the Resource Management
division will merge and report directly to the deputy assistant secretary.

        The OIG team questions the decision to consolidate information technology support
functions under AAS for all of GIS. Currently, the Office of Global Publishing Solutions (GPS)
and the Office of Directives Management (DIR) receive information technology support from the
Office of Information Technology Services, which provides favorable customer support with
minimal cost and resources needed. No one provided the OIG team with documentation
demonstrating the benefits gained by changing the information technology support provider from
the Office of Information Technology Services to AAS. Further, project documentation
pertaining to the planning for the consolidation effort was insufficient. The documentation did
not show an analysis of GPS’s and DIR’s work processes, assessment of requirements needed to
support those processes, or an evaluation of information technology personnel and their skill sets
                                         23
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

to support the required work. In addition, there was no evidence of regular communication
among AAS, GPS, and DIR management to discuss the effort. In fact, during the course of the
inspection, many of the regularly scheduled biweekly meetings did not take place.

        AAS did not document key stakeholders supported by GPS and DIR. With GPS and DIR
providing services to support the work of the Secretary of State, an understanding of their
customer base is critical. Information technology contract and funding mechanisms are also
unclear. Although there is no detailed timeline for the consolidation of information technology
services, the OIG team was told of plans to have the information technology support functions
for GPS and DIR consolidated by the end of June 2012, to coincide with the ending of one
particular information technology contract. Also unresolved is the issue of how AAS will
provide support services, if at all, for the international component of GPS’s operations. AAS
management remains undecided on this point, because it does not know how overseas posts
charge information technology-related costs.

Recommendation 38: The Bureau of Administration should postpone the consolidation of
information technology support services for the entire Office of Global Information Services
until the bureau has completed an analysis of the benefits of such consolidation from cost,
resources, funding, and customer service perspectives. (Action: A)

       The completion of project management documentation, along with continuous
communication with GPS and DIR management and staff, is key to ensuring a smooth transition
of support services. The offices involved can set a transition date only once all key players
complete such documentation and reach agreement. Using the end date of an information
technology contract to determine when AAS will start supporting GPS and DIR is no substitute
for a well-considered plan.

Recommendation 39: The Bureau of Administration should complete and document the Office
of Global Publishing Solutions’ and the Office of Directives Management’s requirements, work
processes, and workflows, as well as the effect of consolidation on information technology
personnel and funding, before the bureau moves forward with the consolidation of information
technology support services. (Action: A)

Information Technology Inventory Management

        AAS lacks inventory processes and management internal controls, which has resulted in
idle equipment and unapproved hardware on its networks. The OIG team identified surplus
computer workstations located in one of IPS’s annexes, for which AAS management was unable
to provide justification. After further research, AAS management determined that staff purchased
the equipment prior to the year’s Department Global Information Technology Modernization
program refresh. In the absence of an accurate inventory, AAS was only able to estimate the
levels of idle equipment as between 70 and 125 workstations. Additionally, AAS was using
unapproved scanners on its networks. Management explained such use as an oversight on its part
and requested approval from the Department’s Information Technology Change Control Board,
which it received at the end of the OIG inspection. IPS could prevent such instances by
implementing a documented inventory process as outlined in 14 FAM 426–429.

                                         24
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 40: The Bureau of Administration should document the Office of Information
Programs and Services’ information technology inventory process, including roles and
responsibilities of personnel and steps for equipment acquisition and reconciliation. (Action: A)




                                         25
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


     Security
             IPS is located in two General Services Administration-leased buildings (State Annexes 2
     and 13) and in the Harry S Truman Building. The leased buildings are lock-and-leave facilities.
     The Bureau of Diplomatic Security certified the buildings for open storage of information
     classified at Secret and below. Uniformed protection officers from the Bureau of Diplomatic
     Security conduct roving patrols and respond to alarms if activated. Two unit security officers
     administer the IPS security program. A full-time contractor oversees operations at one building,
     and a GS-09 Civil Service program analyst is responsible for security at the other. The security
     programs are administered separately, with little communication between the unit security
     officers.

             IPS conforms largely to Department procedural, physical, and technical security policies
     with the exceptions discussed below. The OIG team found the security incident program
     exceptionally well managed. The Department has not recorded any security incidents or
     violations since 2005.
(b) (5)




     Recommendation 41: (b) (5)


(b) (5)




            Informal Recommendation 10: (b) (5)




 (b) (5)

                                              26
                                  SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Top Secret Control Officer

       IPS has not assigned a unit Top Secret control officer for State Annex 13. One primary
Top Secret control officer is on orders to oversee Top Secret document control for State Annex 2
only. These control officers are responsible for properly safeguarding collateral Top Secret
material, including its accountability, storage, and transfer, per 12 FAM 512.1-4. State Annex 13
receives Top Secret documents directly from non-Department entities and should have a Top
Secret control officer to account for in- and out-bound shipments in accordance with 12 FAM
535.1-2 b.

Recommendation 42: The Bureau of Administration, in coordination with the Bureau of
Diplomatic Security, should designate a unit Top Secret control officer for operations at State
Annex 13 and provide the designated employee with the required Bureau of Diplomatic Security
training. (Action: A, in coordination with DS)

Office of Information Programs and Services Employee Badges

       IPS issues office-specific security badges to its own employees. (b) (5)

          IPS directs employees to wear the badge in conjunction with Department-issued
Personal Identity Verification and Facility Access Cards. (b) (5)



         Issuance of the IPS-specific badges is excessive and a waste of resources. The OIG team
consulted with the Bureau of Diplomatic Security on the matter and received confirmation that
only official Personal Identity Verification media that are compliant with Homeland Security
Presidential Directive 12 can allow access into any Department facility or suite. Although the
Department does issue badges for identification of visitors, for subject matter expertise such as
official Department photographer and security systems technicians, or for specific events, these
badges neither grant access nor serve as substitutes for Department-issued badges.

         Although neither Homeland Security Presidential Directive 12 nor Department regulation
12 FAM 371.5 provides specific guidance on issuance of other than Personal Identity
Verification identification, the OIG team believes that the intent of the directive is to provide
uniformity among Federal agencies in security badge identification. For this and other reasons,
the Department converted from the former “blue” badge to the current Personal Identity
Verification identification, which has a uniform photo, security clearance, escort status, and
personal identification number. These features should be sufficient to allow a Department-
affiliated employee justification for access to any particular building within the Department. In
addition, the inspection team believes that the Bureau of Diplomatic Security’s uniformed
protection officer controlling access to a building might concentrate on an employee’s activity
badge (in this case, the IPS badge) rather than on the Department Personal Identity Verification
identification.




                                         27
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 43: The Bureau of Administration should eliminate the use of Office of
Information Programs and Services employee identification badges and modify the Personal
Identity Verification identification media to identify office employee status. (Action: A)

Facility Emergency Action Plan

        State Annexes 2 and 13 each have their own domestic emergency action and emergency
evacuation plans. The plans are sound, describing actions taken to ensure the safety of IPS
employees and protection of property in IPS-occupied space. IPS properly conducts emergency
action drills biannually.




                                        28
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
       Department managers are tasked with establishing cost-effective systems of management
controls so that U.S. Government activities are managed effectively and with integrity, according
to 2 FAM 021.1. Each manager has a responsibility to design management controls that provide
reasonable assurance of the prevention or prompt detection of errors, irregularities, and
mismanagement. IPS lacks management oversight and controls in basic procedures and
processes, such as time and attendance processing, personnel actions, award nominations, and
contract oversight. The lack of such oversight has resulted in widespread problems that require
immediate attention.

Time and Attendance

        The OIG team reviewed time and attendance records and discovered that IPS was not
recording overtime appropriately. According to 4 FAH-3 H-523.2, an appropriate official must
authorize premium pay, such as overtime, night, holiday, and Sunday work, in advance and in
writing. The assessment showed that employees worked overtime hours but submitted only a few
written requests and that immediate supervisors, rather than a certifying official, approved and
certified these same requests. For example, one division did not have appropriate approvals
before the employees worked overtime, and the supervisor signed overtime request forms as both
the authorizing and certifying officer. Employees made no correction to the original submittal for
overtime and included no justification in the request to indicate what specific work they would
accomplish during the extra time. (b) (5)


        IPS employees said they understood that only specific offices were permitted to request
overtime hours and that a senior-level manager granted one division a “blanket overtime
authorization” that permitted as much as 15 hours a pay period per employee. Employees also
indicated that if they worked more than 15 hours, the claim would not be approved. The absence
of a clear overtime policy and inadequate management controls for overtime and leave
documentation have led to confusion and lack of accountability among staff.

Recommendation 44: The Bureau of Administration should implement and enforce an overtime
policy for the Office of Information Programs and Services staff that requires appropriate
documentation and advance approval of overtime. (Action: A)

         The OIG team’s review of records from 2007 to 2012 showed inconsistencies in approval
of the time and attendance reports. Some supervisors did not sign reports in a timely manner,
thus requiring subsequent corrections.

        Time and attendance records for direct-hire, contractor, and WAE employees are
exclusively in paper format and date back to 2005. Maintaining these records in paper is
wasteful. It would be more effective for supervisors to validate time and attendance hours in an
online system. The Bureau of Administration implemented a successful electronic virtual
timecard system, but GIS advised the bureau that the system did not meet its requirements and


                                         29
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

therefore opted out. The office could not provide documentation to justify nonparticipation and
remains the only office in the Bureau of Administration that does not use the application.

Recommendation 45: The Bureau of Administration should implement a policy requiring the
Office of Global Information Services to participate in the bureauwide electronic virtual timecard
system program. (Action: A)

Personnel Management: Inadequate Human Capital Planning

        IPS does not have a plan to manage retirements and fill vacancies promptly. Since 2009,
69 employees have retired or resigned. Three division head positions and one branch chief
position were vacant at the time of the inspection, one since 2007. The deputy director, in
addition to his other duties, serves as acting head for all of those offices. This situation is
unacceptable. These offices handle a significant part of the workload for IPS and require
consistent, full-time leadership. However, IPS used funding for these positions to hire new full-
time equivalents at lower grades.

Recommendation 46: The Bureau of Administration should fill the three vacant division
positions and the vacant branch chief position in the Office of Information Programs and
Services. (Action: A)

         IPS employs an unusually large percentage of WAEs and contractors. The presence of
these experienced employees, who work under a flexible system, is a source of strength to the
organization. However, the OIG team identified multiple occasions when WAEs reached their
hour or salary caps, and IPS rehired them under a contract so that they could continue
performing the same work. It is not permissible for an employee on a temporary appointment
who reaches his or her hourly or salary cap to continue work as a contractor performing the same
duties. 10 This practice can result in violations of Federal employee ethical standards and related
criminal laws.

Recommendation 47: The Bureau of Administration should cease rehiring when actually
employed staff members on contracts after they reach their hour or salary caps. (Action: A)

        On average, a WAE employee costs the U.S. Government $65 per hour. As a contract
hire, the same person costs the U.S. Government $87.65 per hour. IPS could use the difference in
labor costs to build a better staffing model that maximizes use of WAEs at the standard pay rate
and applies the savings toward full-time equivalent Civil Service positions. Such a plan would
allow IPS to continue to employ highly qualified WAEs and to fill key vacant positions in a cost-
effective manner.

Recommendation 48: The Bureau of Administration should implement a human capital plan
that optimizes use of when actually employed and direct-hire Civil Service employees to provide
a sufficient workforce. (Action: A)


10
  See Office of Civil Service Human Resources Management Memorandum, Employees on Temporary
Appointments Working for Contractors, dated October 27, 2010.
                                           30
                               SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

        There are imbalances and inconsistencies in IPS’s reassigning and hiring of personnel,
handling of the student employment program, and performance of other administrative functions,
all of which contribute to an appearance of impropriety. Although the OIG team did not obtain
clear evidence of the violation of any human resources rules or regulations, several processes
require improvement.

        At the time of the inspection, three former deputy directors and one former senior advisor
of IPS were working as contractors. The common perception among IPS staff is that only certain
employees are provided this opportunity. The OIG team found several cases of immediate family
members of IPS employees working in the office. Several employees raised the issue of
nepotism in questionnaires or interviews with inspectors, and staff thought that family members
have an advantage in the office. Some of these same family members were interns in the IPS
student program before they received a full-time position with the Department. Under the U.S.
Code, 11 an employee may not appoint, employ, promote, advance, or advocate for appointment
to a Department position any relative of that employee. The U.S. Code also imposes an absolute
bar on Federal pay for any relative hired in violation of this prohibition. 12

Recommendation 49: The Bureau of Administration should examine hiring practices in the
Office of Information Programs and Services, deal with any violations appropriately, and issue a
notice reminding all office managers that Federal law prohibits nepotism in the workplace.
(Action: A)

        IPS frequently reassigns staff to respond to surges in workload. On several occasions, IPS
detailed employees to another division and later permanently assigned them there without filling
the vacant positions they left behind. IPS usually makes these temporary detail assignments or
reassignments without providing employees with a statement of their new duties beforehand, as
required by 3 FAM 2412.3. Furthermore, IPS’s process for notifying employees about
reassignments is not consistent; some employees receive notification via a memorandum,
whereas others receive verbal or email notification. Frequent and inconsistent reassignment of
employees can have a negative affect on performance, career enhancement, and morale.

Recommendation 50: The Bureau of Administration should reconcile the staffing pattern in the
Office of Information Programs and Services to verify that each employee fills a current full-
time equivalent position and that there is justification for any position that is on hold. (Action: A)

Recommendation 51: The Bureau of Administration should implement a procedure for
conducting employee reassignments and details in the Office of Information Programs and
Services. (Action: A)



11
   5 U.S.C. § 3110.
12
   5 U.S.C. § 3110 (c). The language of 3 FAM 8312 a. incorrectly suggests this prohibition applies only to members
of an employee’s household, but 5 U.S.C. § 3110 (a) (3) defines relatives to include “an individual who is related to
the public official as father, mother, son, daughter, brother, sister, uncle, aunt, first cousin, nephew, niece, husband,
wife, father-in-law, mother-in-law, son-in-law, daughter-in-law, brother-in-law, sister-in-law, stepfather, stepmother,
stepson, stepdaughter, stepbrother, stepsister, half brother, or half sister.”

                                                31
                                    SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        A review of ethics training of top-level management in IPS showed that many managers
have not yet completed required training as outlined in Code of Federal Regulations 5 CFR 2638,
Subpart G, E.O. 12674, and E.O. 12731. Without such training, managers may lack the skills to
deal effectively and appropriately with a variety of issues, including those pertaining to human
resources and contracts.

Recommendation 52: The Bureau of Administration should implement a policy requiring all
managers in the Office of Information Programs and Services to take the Department of State’s
required ethics training. (Action: A)

Student Internship Programs

        In 2000, the Bureau of Human Resources created the program entitled Success, Today
and Tomorrow, Through Training and Recruiting Students. This program is an innovative effort
to capture the next generation of talent from universities in the Washington, DC, area. Other
programs that create opportunities for students at the Department include the student clerical
program and the student career experience program.

        In IPS, student employees provide program assistance in many areas, including
administering FOIA, reviewing historical records for declassification and release, and responding
to public requests. A majority of the students who work in IPS receive full-time Civil Service or
Foreign Service jobs directly after completing their internships. The screening process for this
program relies on a student coordinator and a group of WAEs to review applications and provide
recommendations. After the review panel selects the candidates, the director or deputy assistant
secretary for IPS gives final approval. This screening process will change with the
implementation of the new Pathway Programs in July 2012, which will allow for a more
structured, centralized recruitment and selection process.

Training

        IPS does not have an effective training plan. Most training is on the job, and there is little
cross-training, even among offices that share staff. Many employees did not receive a general
orientation or attend the Civil Service Orientation at the Foreign Service Institute upon entry into
service. A review of training records also demonstrated that only a few IPS employees at the GS-
13 level and above attended Equal Employment Opportunity training, and many did not have the
required leadership training. Without appropriate training for all levels of staff, the organization
suffers in terms of employee performance and product quality.

Recommendation 53: The Bureau of Administration should implement a training plan for the
Office of Information Programs and Services that clearly identifies training requirements for
both supervisors and other employees and includes Equal Employment Opportunity and diversity
training as well as leadership courses for each grade level. (Action: A)

Delegation of Authorities

       The deputy director and the Resource Management branch chief each monitor 4 of the 13
programs listed in IPS’s 2011 Federal Managers’ Financial Integrity Act Internal Management
                                           32
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Control review. Key areas, such as the FOIA program, case processing of FOIA and Privacy Act
requests, and time and attendance, however, have no backup. This arrangement strains the span
of control that two people are capable of exercising, thereby reducing the effectiveness of these
programs.

Recommendation 54: The Bureau of Administration should realign internal controls in the
Office of Information Programs and Services and designate key personnel for Federal Managers’
Financial Integrity Act categories in 2012. (Action: A)

        IPS lacks adequate controls for handling the retired records that await destruction at the
Washington National Records Center and the Department’s Records Center. An estimated
13,000 cubic feet of retired records are past due for destruction. When IPS receives disposal
notices for records destruction, it forwards these notices to the respective Department records
owners for approval. However, Department offices and bureaus do not always respond in a
timely manner, which causes a backlog of records pending destruction.

Recommendation 55: The Bureau of Administration should implement a cost control
mechanism for the Office of Information Programs and Services to charge individual Department
of State bureaus and offices directly for records stored beyond their life span. (Action: A)




                                          33
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Administration should implement a policy requiring the
Office of Information Programs and Services to schedule regular all-hands meetings and for
division chiefs to hold weekly meetings with staff. (Action: A)

Recommendation 2: The Bureau of Administration should provide clearer instructions in the
Freedom of Information section of the Department of State’s Internet site to minimize the
number of invalid requests. (Action: A)

Recommendation 3: The Bureau of Administration should train a second person in the Office
of Information Programs and Services’ Requester Communication branch to do quality checks.
(Action: A)

Recommendation 4: The Bureau of Administration should develop a list of all bureaus and
independent offices in the Department of State—complete with component offices,
responsibilities, and programs administered—to serve as a reference for Freedom of Information
Act case analysts in the Office of Information Programs and Services. (Action: A)

Recommendation 5: The Bureau of Administration, in coordination with the Office of the
Legal Adviser, should publish an updated notice of the Department of State’s organization.
(Action: A, in coordination with L)

Recommendation 6: The Bureau of Administration, in coordination with the Office of the
Legal Adviser, should implement a training plan for the Freedom of Information Act litigation
team in the Office of Information Programs and Services. (Action: A, in coordination with L)

Recommendation 7: The Bureau of Administration should assign full-time reviewers to
support the Freedom of Information Act litigation team in the Office of Information Programs
and Services. (Action: A)

Recommendation 8: The Bureau of Administration should instruct the Freedom of
Information Act program manager to prepare a semiannual newsletter dealing with Freedom of
Information Act issues for officers who deal with such issues at all domestic bureaus and U.S.
embassies. (Action: A)

Recommendation 9: The Bureau of Administration, in coordination with the Foreign Service
Institute, should develop a distance-learning course dealing with the fundamentals of the
Freedom of Information Act and require all Freedom of Information Act officers to take the
course. (Action: A, in coordination with FSI)

Recommendation 10: The Bureau of Administration, in coordination with the Office of the
Under Secretary for Management, should implement a policy requiring all employees to
complete the classification training mandated under Executive Order 13526. (Action: A, in
coordination with M/PRI)

Recommendation 11: The Bureau of Administration should negotiate a reworded refusal letter
with the U.S. Citizenship and Immigration Services Freedom of Information Office that informs
                                              34
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

requesters of Department of State requirements for Freedom of Information Act requests.
(Action: A)

Recommendation 12: The Bureau of Administration, in coordination with the Executive
Secretariat, should develop performance standards for responding to Freedom of Information Act
search requests and provide semiannual reports on compliance for the Secretary, Deputy
Secretaries, and Assistant Secretaries. (Action: A, in coordination with S/ES)

Recommendation 13: The Bureau of Human Resources, in coordination with the Bureau of
Administration, should review and update all position descriptions and work requirements for the
bureaus’ contacts for Freedom of Information Act responsibilities. (Action: DGHR, in
coordination with A)

Recommendation 14: The Bureau of Administration should develop a list of officers with
Freedom of Information Act responsibilities at all U.S. embassies. (Action: A)

Recommendation 15: The Bureau of Administration should implement a system for billing
Department of State bureaus for any attorneys’ fees assessed in court cases related to the
Freedom of Information Act if delays by the bureau contributed to the court’s assessment of the
attorneys’ fees. (Action: A)

Recommendation 16: The Office of the Legal Adviser, in coordination with the Bureau of
Administration, should review the staffing needs of the Office of Information Programs and
Services’ Freedom of Information Act litigation team and assign staff as necessary to provide
adequate coverage. (Action: L, in coordination with A)

Recommendation 17: The Bureau of Administration should review staffing resources in the
Office of Information Programs and Services’ Paper Review branch with a view toward reducing
the declassification backlog. (Action: A)

Recommendation 18: The Bureau of Administration should assign appropriate duties to the
Series 1421 archives technician in the Office of Information Programs and Services’ Paper
Review branch so that this employee conducts data entry duties in accordance with the Office of
Personnel Management’s position description for this series. (Action: A)

Recommendation 19: The Bureau of Administration, in coordination with the Bureau of
Human Resources, should review the description for foreign affairs officer position GS-130-13
in the Office of Information Programs and Services’ Foreign Relations of the United
States/Mandatory Review branch and reclassify the position, if appropriate. (Action: A, in
coordination with DGHR)

Recommendation 20: The Bureau of Administration, in coordination with the Bureau of
Information Resource Management, should implement a plan—including adequate management,
monitoring, and compliance followup controls—to facilitate domestic bureau and overseas post
compliance with Federal statutory requirements for and Department of State guidance on records
management. (Action: A, in coordination with IRM)



                                         35
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 21: The Bureau of Administration, in coordination with the Bureau of
Information Resource Management, should implement a plan to identify and capture all record
email in the State Messaging and Archive Retrieval Toolset. (Action: A, in coordination with
IRM)

Recommendation 22: The Bureau of Administration, in coordination with the Bureau of
Information Resource Management, should conduct a verifiable analysis to determine the level
of compliance of domestic bureaus and overseas posts to records management statutes and
regulations. (Action: A, in coordination with IRM)

Recommendation 23: The Bureau of Administration should implement an enterprisewide plan
to manage and preserve electronic records in accordance with Federal statutes, regulatory
requirements, and the November 2011 Presidential memorandum on electronic records
management. (Action: A)

Recommendation 24: The Bureau of Administration, in coordination with the Bureau of the
Comptroller and Global Financial Services, should issue joint guidance on digitizing temporary
records and subsequent destruction of paper records after conversion and verification of accuracy
and completeness. (Action: A, in coordination with CGFS)

Recommendation 25: The Bureau of Administration, in coordination with the Foreign Service
Institute, should expand the number of presentations the Ralph J. Bunche Library makes to
Foreign Service Institute students. (Action: A, in coordination with FSI)

Recommendation 26: The Bureau of Administration should define a clear division of roles,
responsibilities, and management reporting between the senior advisor for privacy policy and the
Privacy division in the Office of Information Programs and Services. (Action: A)

Recommendation 27: The Bureau of Administration, in coordination with the Bureau of
Diplomatic Security and the Foreign Service Institute, should combine the Department of State’s
cyber security training course and the privacy and personally identifiable information training
course into a single mandated course that all Department of State employees, including
contractors, take annually. (Action: A, in coordination with DS and FSI)

Recommendation 28: The Bureau of Administration should implement a policy requiring all
bureau executive offices to designate individual(s) to be the point of contact for their bureau’s
privacy impact assessments and system of record notices and to provide this point of contact
information to the Office of Information Programs and Services’ Privacy division. (Action: A)

Recommendation 29: The Bureau of Administration should implement a policy requiring all
bureaus to complete necessary updates and revisions for their respective privacy impact
assessments and system of record notices as required by the Privacy Act of 1974. (Action: A)

Recommendation 30: The Bureau of Information Resource Management should take
ownership of the Data Loss Prevention program and tool for the Department of State. (Action:
IRM)



                                          36
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 31: The Bureau of Administration should train supervisors and staff on the
performance appraisal process and individual development plans and develop a mentoring
program for employees. (Action: A)

Recommendation 32: The Bureau of Administration should include the timely preparation of
employee appraisals in supervisors’ work requirements. (Action: A)

Recommendation 33: The Bureau of Administration should update the position descriptions
for position numbers S9017500 and S97068. (Action: A)

Recommendation 34: The Bureau of Administration should implement a plan to clarify
standards for the Office of Information Programs and Services’ awards program and to set
appropriate amounts for cash awards. (Action: A)

Recommendation 35: The Bureau of Administration should realign contracting officer’s
representative and government technical monitor responsibilities in the Office of Information
Programs and Services to improve contract oversight management. (Action: A)

Recommendation 36: The Bureau of Administration should postpone all development and
enhancement activities for the State Archiving System and the Freedom of Information
Document Management System in the Office of Information Programs and Services until the
bureau has completed all required systems documentation, including user requirements, benefit
and cost analyses, risk assessments, and change control documentation, and has obtained all
appropriate management and user acceptance approvals. (Action: A)

Recommendation 37: The Bureau of Administration should implement a plan for the Office of
Information Programs and Services’ Archiving and Access Systems Management division to
meet with all users of the State Archiving System and the Freedom of Information Document
Management System to identify all critical and core system requirements and address them in the
upgrade efforts of both systems. (Action: A)

Recommendation 38: The Bureau of Administration should postpone the consolidation of
information technology support services for the entire Office of Global Information Services
until the bureau has completed an analysis of the benefits of such consolidation from cost,
resources, funding, and customer service perspectives. (Action: A)

Recommendation 39: The Bureau of Administration should complete and document the
Office of Global Publishing Solutions’ and the Office of Directives Management’s requirements,
work processes, and workflows, as well as the effect of consolidation on information technology
personnel and funding, before the bureau moves forward with the consolidation of information
technology support services. (Action: A)

Recommendation 40: The Bureau of Administration should document the Office of
Information Programs and Services’ information technology inventory process, including roles
and responsibilities of personnel and steps for equipment acquisition and reconciliation. (Action:
A)



                                         37
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 41: (b) (5)



Recommendation 42: The Bureau of Administration, in coordination with the Bureau of
Diplomatic Security, should designate a unit Top Secret control officer for operations at State
Annex 13 and provide the designated employee with the required Bureau of Diplomatic Security
training. (Action: A, in coordination with DS)

Recommendation 43: The Bureau of Administration should eliminate the use of Office of
Information Programs and Services employee identification badges and modify the Personal
Identity Verification identification media to identify office employee status. (Action: A)

Recommendation 44: The Bureau of Administration should implement and enforce an
overtime policy for the Office of Information Programs and Services staff that requires
appropriate documentation and advance approval of overtime. (Action: A)

Recommendation 45: The Bureau of Administration should implement a policy requiring the
Office of Global Information Services to participate in the bureauwide electronic virtual timecard
system program. (Action: A)

Recommendation 46: The Bureau of Administration should fill the three vacant division
positions and the vacant branch chief position in the Office of Information Programs and
Services. (Action: A)

Recommendation 47: The Bureau of Administration should cease rehiring when actually
employed staff members on contracts after they reach their hour or salary caps. (Action: A)

Recommendation 48: The Bureau of Administration should implement a human capital plan
that optimizes use of when actually employed and direct-hire Civil Service employees to provide
a sufficient workforce. (Action: A)

Recommendation 49: The Bureau of Administration should examine hiring practices in the
Office of Information Programs and Services, deal with any violations appropriately, and issue a
notice reminding all office managers that Federal law prohibits nepotism in the workplace.
(Action: A)

Recommendation 50: The Bureau of Administration should reconcile the staffing pattern in
the Office of Information Programs and Services to verify that each employee fills a current full-
time equivalent position and that there is justification for any position that is on hold. (Action: A)

Recommendation 51: The Bureau of Administration should implement a procedure for
conducting employee reassignments and details in the Office of Information Programs and
Services. (Action: A)

Recommendation 52: The Bureau of Administration should implement a policy requiring all
managers in the Office of Information Programs and Services to take the Department of State’s
required ethics training. (Action: A)

                                          38
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 53: The Bureau of Administration should implement a training plan for the
Office of Information Programs and Services that clearly identifies training requirements for
both supervisors and other employees and includes Equal Employment Opportunity and diversity
training as well as leadership courses for each grade level. (Action: A)

Recommendation 54: The Bureau of Administration should realign internal controls in the
Office of Information Programs and Services and designate key personnel for Federal Managers’
Financial Integrity Act categories in 2012. (Action: A)

Recommendation 55: The Bureau of Administration should implement a cost control
mechanism for the Office of Information Programs and Services to charge individual Department
of State bureaus and offices directly for records stored beyond their life span. (Action: A)




                                        39
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Administration should not assign Office of
Information Programs and Services staff members to other organizations until that office has
reduced its backlog of Freedom of Information Act cases.

Informal Recommendation 2: The Bureau of Administration should implement a process to
provide periodic updates highlighting common errors and best practices to guide Freedom of
Information Act case analysts and liaisons in the Office of Information Programs and Services.

Informal Recommendation 3: The Bureau of Administration should schedule additional
appeals panel meetings throughout the year to expedite the Freedom of Information Act appeals
process.

Informal Recommendation 4: The Bureau of Administration should provide guidance and the
necessary resources for the Office of Information Programs and Services’ Freedom of
Information Act program manager to improve Act-related efforts throughout the Department of
State via training, updates, and systemic changes.

Informal Recommendation 5: The Bureau of Administration should provide the Office of
Information Programs and Services with high-speed copy machines to facilitate the workflow
until the office can implement a greener solution.

Informal Recommendation 6: The Bureau of Administration should develop an interim read
file of the most recent declassification guidance for distribution to all declassification reviewers
in the Office of Information Programs and Services’ Systematic Review Program division.

Informal Recommendation 7: The Bureau of Administration should analyze the effect of the
increased cost of electronic acquisitions in the Ralph J. Bunche Library so that Department of
State leadership can make an informed decision about appropriate funding levels for the library.

Informal Recommendation 8: The Bureau of Administration should enroll the Office of
Information Programs and Services’ resource management program analyst in financial
management training.

Informal Recommendation 9: The Bureau of Administration should implement a policy that
requires the Office of Information Programs and Services to review its telework agreements
annually.

Informal Recommendation 10: (b) (5)


                                          40
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                               Name     Arrival Date
Deputy Assistant Secretary                        Margaret P. Grafeld          09/10
Director, A/GIS/IPS                                 Sheryl L. Walter           12/11
Deputy Director, A/GIS/IPS                            Alex Galovich            12/09
Division Chiefs
   Records and Archives Management Division              Tasha Thian          08/07
   Resource Management Staff                          Crystal Abrams          01/10
   Diplomatic Research Services                 Alex Galovich, Acting         12/09
   Privacy Division                                   Christina Jones         01/11
   Requester Liaison Division                         Rosemary Reid           06/11
   Programs and Policies Division               Alex Galovich, Acting         06/11
   Statutory Compliance and Research Division          Patrick Scholl         10/10
   Archiving and Access Systems Management
       Division                                   Andrew Blumenthal           06/11
   Ralph J. Bunche Library                             Hugh Howard            12/11
   Systematic Review Program                    Alex Galovich, Acting         04/12




                                       41
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AAS             Archiving and Access Systems Management division
Department      U.S. Department of State
DIR             Office of Directives Management
E.O.            Executive Order
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
FISMA           Federal Information Security Management Act
FOIA            Freedom of Information Act
FREEDOMS        Freedom of Information Document Managing System
GIS             Global Information Services
GPS             Office of Global Publishing Solutions
IPS             Office of Information Programs and Services
ISOO            Information Security Oversight office
OIG             Office of Inspector General
PII             Personally identifiable information
PRV             Privacy division
SAPP            Senior advisor for privacy policy
SMART           State Messaging and Archival Retrieval Toolset
WAE             When actually employed




                            42
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
